C^^s8:2Oe1/O9@£56-LE®HunlDEmlu0<®1t$a7509@cl 0£yt§^3J P£fc&2FbfeSJ: 0^6^202387

fHmteb H>tate3 Court of Appeals;
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

No. 20-10985

FILED
May 25, 2021

Jack Anthony Chatman

Lyle W. Cayce
Clerk

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:20-CV-156

Before Costa, Duncan, and Oldham, Circuit Judges.
Per Curiam:
We remanded this case to the district court because it was unclear
from the record whether the petitioner, a pro se prisoner, placed his notice of
appeal in the prison mail system on or before August 31, 2020, the last day
for filing the notice. The district court ordered the respondent to file a
verified copy of the applicable prisoner mail log showing petitioner’s
outgoing mail from July 15, 2020 to October 1, 2020.

64

C^s8:^et^^6-U^fciun5fejTJum»1tW5096d 0m§&2 PS^A&mt^: G®g6fl2Cffi388 •

No. 20-10985

After reviewing the evidence, the district court found that the notice
of appeal was placed in the mail on September 14,2020. When set by statute,
the time limitation for filing a notice of appeal in a civil case is jurisdictional.
Hamerv. Neighborhood Hous. Servs. of Chi., 138 S. Ct. 13,17 (2017); Bowles v.
Russell, 551 U.S. 205, 214 (2007). The lack of a timely notice mandates
dismissal of the appeal. United States v. Garcia-Machado, 845 F.2d 492, 493
(5th Cir. 1988). Accordingly, the appeal is DISMISSED for want of
jurisdiction. All pending motions are DENIED.

2

65

Case 3:20-cv-00156-L-BN Document 47 Filed 02/03/21

Page lot 4 PagelD 2073

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
JACK ANTHONY CHATMAN,
TDCJ No. 2173980,
Petitioner
V.
DIRECTOR, TDCJ-CID,
Respondent.

§
§
§
§
§
§
§
§
§
§

No. 3:20-cv-156-L-BN

FINDINGS, CONCLUSIONS, AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
The Court dismissed Petitioner Jack Anthony Chatman’s pro se application for
a writ of habeas corpus under 28 U.S.C. § 2254 without prejudice on July 31, 2020.
See Dkt. Nos. 28 & 29. Although the Court denied Chatman a certificate of
appealability the same day, see Dkt. No. 28, Chatman filed a notice of appeal,
stamped as filed in the United States Court of Appeals for the Fifth Circuit on
September 17, 2020, see Dkt. No. 30. But, because Chatman did not date his notice of
appeal, the Fifth Circuit has remanded his case:
A prisoner’s pro se notice of appeal is timely filed if deposited in the
institution’s internal mail system on or before the last day for filing. See
Fed. R. APP. P. 4(c)(1). As it cannot be determined from the record in this
case whether the petitioner delivered the notice: of appeal to prison
officials for mailing on or before August 31, 2020, the case must be
remanded to the district court to make this determination. See
Thompson v. Montgomery, 853 F.2d 287, 288 (5th Cir. 1988) (per
curiam). Upon making this determination, the district court shall return
the case to this court for further proceedings, or dismissal, as may be
appropriate.
Dkt. No. 33.

Case 3:20-cv-00156-L-BN Document 47 Filed 02/03/21

Page 2 of 4 PagelD2074

And United States District Judge Sam A. Lindsay referred “this matter to the
assigned United States Magistrate Judge to submit findings and recommendation to
address the issue noted in the Fifth Circuit’s remand order.” Dkt. No. 34.
To facilitate the fact finding required by the remand order, the Court ordered
Respondent to file verified portions of the applicable prisoner mail log, from July 15,
2020 through October 1, 2020, reflecting any outgoing mail deposited by Chatman
and addressed either to the United States District Court for the Northern District of
Texas or to the United States Court of Appeals for the Fifth Circuit. See Dkt. No. 35.
The Court extended Respondent’s deadline to make this fifing, see Dkt. Nos. 43
& 44, but, recognizing the limited scope of the Fifth Circuit’s remand, the Court
denied Chatman’s requests to appoint counsel and for an evidentiary hearing, see
Dkt. Nos. 36-41.
Respondent filed a verified administrative record on January 27, 2021. See
Dkt. No. 46. This fifing reflects that, from July 15, 2020 through October 1, 2020,
Chatman deposited mail on July 23, 2020 (addressed to the district court); on August
12, 2020 (addressed to the district court); on August 21, 2020 (addressed to the Dallas
County District Clerk); and on September 14, 2020 (addressed to the Fifth Circuit).
See id. And prison officials delivered each to the United States Postal Service the
same day that Chatman delivered the mail to prison officials. See id.
The July 23 entry plausibly relates to the objections Chatman filed to the
undersigned’s findings, conclusions, and recommendation as to the disposition of his
habeas application, which objections the Court docketed on July 28, 2020. See Dkt.

-2-

Case 3:20-cv-00156-L-BN Document 47 Filed 02/03/21

Page 3 of 4 PagelD 2075

No. 27. The August 12 entry does not correspond with a docket entry in this case or
any other case that Chatman has filed in this district. But, given that the September
14 entry plausibly corresponds to the notice of appeal filed in the Fifth Circuit, the
undersigned cannot find that the available record reflects that Chatman delivered
the notice of appeal to prison officials on or before August 31, 2020.
The undersigned makes this finding in the context of the limited remand order.
The issue for this Court to determine on remand is solely “whether the petitioner
delivered the [undated] notice of appeal [stamped as filed on September 17, 2020] to
prison officials for mailing on or before August 31, 2020.” Dkt. No. 33 at 2; compare
id., with, e.g., Ewing v. Burke, 792 F. App’x 340, 341 (5th Cir. 2020) (per curiam)
(“This case is REMANDED to the district court for the limited purpose of making a
determination whether Ewing’s notice of appeal was otherwise timely under Federal
Rule of Appellate Procedure 4(c)(1), and, if the district court determines that the
appeal was untimely, whether the deadline for filing the notice of appeal is extended
under Federal Rule of Appellate Procedure 4(a)(5)”).
And the only record available to make this determination indicates that the
notice of appeal was delivered to prison officials on September 14, 2020.
Chatman, moreover, fails to mention - in any of the multiple filings that he
made in this Court since the Fifth Circuit’s remand order - that he deposited mail
addressed to this Court on August 12, 2020. See Dkt. Nos. 36, 38, 39, 40, 42, & 45.
Recommendation
The Court should respond to the remand order by finding that the record

-3-

Case 3:20-cv-00156-L-BN Document 47 Filed 02/03/21

Page 4 of 4 PagelD2076

reflects that Petitioner Jack Anthony Chatman delivered the notice of appeal
(stamped as filed in the United States Court of Appeals for the Fifth Circuit on
September 17, 2020) to prison officials for mailing on September 14, 2020 and return
this case to the Fifth Circuit.
A copy of these findings, conclusions, and recommendation shall be served on
all parties in the manner provided by law. Any party who objects to any part of these
findings, conclusions, and recommendation must file specific written objections
within 14 days after being served with a copy. See 28 U.S.C. § 636(b)(1); Fed. R. Civ.
P. 72(b). In order to be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the basis for the objection, and
specify the place in the magistrate judge’s findings, conclusions, and recommendation
where the disputed determination is found. An objection that merely incorporates by
reference or refers to the briefing before the magistrate judge is not specific. Failure
to file specific written objections will bar the aggrieved party from appealing the
factual findings and legal conclusions of the magistrate judge that are accepted or
adopted by the district court, except upon grounds of plain error. See Douglass v.
United Servs. Auto. Assn, 79 F.3d 1415, 1417 (5th Cir. 1996).
DATED: February 3, 2021

DAVID L. HORAN
UNITED STATES MAGISTRATE JUDGE

-4-

Case 3:20-cv-00156-L-BN Document 20-3 Filed 04/27/20 Page 2 of 3 Pa^fS5§8K

SllARON KELLER
PRESIDING JUDGE

Court of Criminal Appeals
P.O. BOX 12308, CAPITOL STATION
AUSTIN, TEXAS 78711

MIKE keasler
BARBARA P. HERVEY
BERT RICHARDSON
KEVIN P. YEARY
DAVID NEWELL
MARY LOU KEEL
SCOTT WALKER
MICHELLE M. SLAUGHTER
JUDGES

DEANA WILLIAMSON
CLERK
(512) 463-1551

SIAN SCH1LHAB
GENERAL COUNSEL
(512)463-1597

Friday, March 29, 2019
Jack Anthony Chatman Jr.
Neal Unit - TDC # 2173980
9055 Spur 591
Amarillo, TX 79107
Re: Chatman, Jack Anthony Jr.
CCA No. PD-0303-19, PD-0304-19 & PD-0305-19
COA No. 05-18-00020-CR, 05-18-00021-CR & 05-18-00022-CR
Trial Court Case No. F17-20589-V, F17-20590-V & F17-52715-V
This Court is in receipt of the Pro Se Petition for Discretionary Review in the above
styled cause number. Records reflect an Opinion was issued by the 5th Court of Appeals on
December 19, 2018, affirming the conviction; a motion for rehearing was not filed. Petition for
Discretionary Review was due in the Court of Criminal Appeals on January 18, 2019. The 5th
Court of Appeals issued mandate in the above styled cause on March 7, 2019.
The Appellant never filed an extension of time to file Petition for Discretionary Review
and it is too late to do so now; please see Texas Rules of Appellate Procedure 68.2(c). Since the
5th Court of Appeals has issued mandate in this case, NO ACTION WILL BE TAKEN ON
THIS PETITION. The petition is being scanned and made a permanent part of the record in this
Court.
Sincerely,

Deana Williamson, Clerk
cc:

State Prosecuting Attorney (Delivered Via E-Mail)
District Attorney Dallas County (Delivered Via E-Mail)
5th Court Of Appeals Clerk (Delivered Via E-Mail)
SUPREME COURT BUILDING, 201 WEST 14TH STREET, ROOM 106. AUSTIN, TEXAS 78701

Website www.txcourts.gov/cca

175

Case 3:20-cv-00156-L-BN Document 20-3 Filed 04/27/20 Page 3 of 3 PagelD 1986

CLERICS OFFICE
COURT OF CRIMINAL APPEALS
AUSTIN, TEXAS

I, DEANA WILLIAMSON, Clerk of the Court of Criminal Appeals, do hereby
certify that as part of iny duties I have care and custody of the records of the
Court. I have searched the records and have found no 11.07 post*conviction
writ of habeas corpus, under trial court cause numbers F-1720589-V, F1720590-V & F-1752715-V, in the name of Jack Anthony Chatman.
WITNESS my hand and seal of said court, at my office in Austin, Texas, this
the 22nd day of April, A. D. 2020.
Deana Williamson, Clerk

By:
Deputy Clerk

176

Case 3:20-cv-00156-L-BN Document 28 Filed 07/31/20 Page lot 5 PagelD2022

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
JACK ANTHONY CHATMAN,
TDCJ No. 2173980,
Petitioner,
v.
LORIE DAVIS, Director
Texas Department of Criminal Justice
Correction Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

Civil Action No. 3:20-cv-156-L

ORDER
On July 16, 2020, United States Magistrate Judge David Horan entered the Findings,
Conclusions, and Recommendation of the United States Magistrate Judge (“Report”) (Doc. 26),
recommending that the court: (1) dismiss without prejudice Petitioner Jack Anthony Chatman’s
(“Petitioner”) Petition for a Writ of Habeas Corpus by a Person in State Custody (“Petition”) (Doc.
1), as it relates to his conviction for evading arrest, for lack of subject matter jurisdiction because
this conviction was discharged prior to the filing of the Petition; (2) dismiss without prejudice the
Petition, as it relates to his convictions for aggravated robbery and aggravated assault with a deadly
weapon, for “failure to exhaust state court remedies in a procedurally correct manner prior to filing
a Section 2254 application;” and (3) deny Petitioner’s Motion for Summary Judgment (Doc. 25).
On July 28, 2020, Petitioner filed his Objections to the Report (Doc. 27), objecting to the
Report on several grounds. First, he asserts that Magistrate Judge Horan erred by recommending
that the court dismiss his Petition with respect to the evading arrest conviction “because [he] is
still in custody, [] was never paid under Gov. Codes 508.147 and 508,149 for [his] work[,] and []
never had [his] right to counsel fulfilled at trial or on appeal.” Pet.’s Obj. 1. Petitioner further
Order - Page 1

42

Case 3:20-cv-00156-L-BN Document 28 Filed 07/31/20 Page 2 of 5 PagelD 2023

contends that but-for a violation of his constitutional rights, he would not have the evading arrest
charge on his record.
Second, Petitioner objects to Magistrate Judge Horan’s recommendation that the Petition
should be dismissed with respect to his other convictions because the Report ignores his arguments
that dismissal of these claims conflicts with the rulings in Trevino v. Thaler, 569 U.S. 413 (2013),
and Ex parte Garcia, 486 S.W.3d 565 (Tex. Crim. App. 2016), that “prove[] that [rjelief is not
possible in Texas on [h]abeas [r]elief[,] and that as an ‘equitable remedy [,]* [he] is allowed to file
[for] the first time in federal court.” Id. Petitioner further contends that Trevino supports his
assertion that he is not able to seek relief in the state court “because of their faulty ‘scheme’ for
addressing ineffective assistance of counsel claims.” Id. at 2.
Petitioner also asserts that he asked for counsel in this matter and “this is why,” as now he
feels like there is “no help of [justice on U.S. [s]oil.”

Id. (internal quotations omitted).

Specifically, he contends that he could not have been expected to prepare and present his claims
adequately, and that counsel would be able to do so appropriately for him to receive the relief he
deserves. He cites Ex parte Garcia in support of his assertion that he should have had counsel to
assist with his Petition. Petitioner also contends that the Magistrate Judge erred in denying his
motion for summary judgment “because his claims are indisputably substantiated with his
exhibits.” Id.
Despite Petitioner’s assertions, Thaler does nothing to add to his position and does not
apply here because Magistrate Judge Horan did not recommend denial of Petitioner’s Petition for
any failure to present his ineffective assistance claim at the state court level. Instead, Magistrate
Judge Horan recommends dismissal because (1) Petitioner’s evading arrest charge was discharged
before he filed this action; and (2) Petitioner has failed to exhaust all state court remedies prior to

Order - Page 2
43

Case 3:20-cv-00156-L-BN Document 28 Filed 07/31/20 Page 3 of 5 PagelD 2024

seeking federal relief. Specifically, the Report notes that Petitioner has not presented any of his
claims to the Texas Court of Criminal Appeals in a petition for discretionary review or an
application for state post-conviction relief. A direct appeal is not the appropriate avenue for
exhausting the required remedies to seek federal habeas relief. Thus, as Petitioner has failed to

/

exhaust all state court remedies, the court cannot grant federal habeas relief. The court, therefore,
overrules Petitioner’s Objections on this basis.
With respect to Petitioner’s objection regarding the appointment of counsel, the court
determines that Petitioner was not harmed by the denial of his request for counsel. The Magistrate
Judge denied without prejudice Petitioner’s request for counsel (see doc. 15) but had the authority
to revisit his request after a response to his Petition was filed. Magistrate Judge Horan never
appointed counsel for Petitioner, and Petitioner did not renew his request. The court determined
that the appointment of counsel was unnecessary at this stage, given that Magistrate Judge Horan
recommended dismissal without prejudice on procedural grounds and not on the merits of the
Petition. Additionally, Petitioner’s objection to Magistrate Judge Horan’s recommendation to
deny his Motion for Summary Judgment is without merit, as he has not exhausted his state court
remedies, and the motion is, therefore, premature. For these reasons, Plaintiffs Objections are
also overruled on these bases.
Having reviewed the pleadings, file, record in this case, and Report, and having conducted
a de novo review of the portions of the Report to which objections were made, the court determines
that the findings and conclusions of the Magistrate Judge are correct, and accepts them as those
of the court. Accordingly, the court overrules Petitioner’s Objections (Doc. 27); and dismisses
without prejudice Petitioner’s Petition for a Writ of Habeas Corpus by a Person in State Custody
(Doc. 1) for lack of subject matter jurisdiction with respect to his conviction for evading arrest,

Order - Page 3

44

Case 3:20-cv-00156-L-BN Document 28 Filed 07/31/20 Page 4 of 5 PagelD 2025

and for failure to exhaust state court remedies in a procedurally correct manner with respect to his
convictions for aggravated robbery and aggravated assault with a deadly weapon.1 Additionally,
the court denies as moot Petitioner’s Motion for Summary Judgment (Doc. 25). As no issues
remain, the court dismisses this action.
Considering the record in this case and pursuant to Federal Rule of Appellate Procedure
22(b), Rule 11(a) of the Rules Governing §§ 2254 and 2255 proceedings, and 28 U.S.C. § 2253(c),
the court denies a certificate of appealability.2 The court determines that Petitioner has failed to
show: (1) that reasonable jurists would find this court’s “assessment of the constitutional claims
debatable or wrong;” or (2) that reasonable jurists would find “it debatable whether the petition
states a valid claim of the denial of a constitutional right” and “debatable whether [this court] was
correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). In support of this
determination, the court accepts and incorporates by reference the Report.

In the event that

Petitioner files a notice of appeal, he must pay the $505 appellate filing fee or submit a motion to
proceed in forma pauperis on appeal.

1 Magistrate Judge Horan notes that Petitioner also failed to exhaust all state court remedies in a procedurally correct
manner with respect to his evading arrest conviction.
2 Rule 11 of the Rules Governing §§ 2254 and 2255 Cases provides as follows:
Certificate of Appealability. The district court must issue or deny a certificate
(a)
of appealability when it enters a final order adverse to the applicant. Before entering the final order,
the court may direct the parties to submit arguments on whether a certificate should issue. If the
court issues a certificate, the court must state the specific issue or issues that satisfy the showing
required by 28 U.S.C. § 2253(c)(2). If the court denies a certificate, the parties may not appeal the
denial but may seek a certificate from the court of appeals under Federal Rule of Appellate
Procedure 22. A motion to reconsider a denial does not extend the time to appeal.
Time to Appeal. Federal Rule of Appellate Procedure 4(a) governs the time to appeal an order entered
(b)
under these rules. A timely notice of appeal must be filed even if the district court issues a certificate of appealability
Order - Page 4

45

Case 3:20-cv-00156-L-BN Document 28 Filed 07/31/20 Page 5 of 5 PagelD 2026

It is so ordered this 31st day of July, 2020.

Sam A. Lindsay
United States District Judge

Order - Page 5

46

Case 3:20-cv-00156-L-BN Document 29 Filed 07/31/20 Page 1 of 1 PageiD 2021

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
JACK ANTHONY CHATMAN,
TDCJ No. 2173980,

§
§
§
§
§
§
§
§
§
§
§
§

Petitioner,
v.
LORIE DAVIS, Director
Texas Department of Criminal Justice
Correction Institutions Division,
Respondent.

Civil Action No. 3:20-cv-156-L

JUDGMENT
This judgment is issued pursuant to the court’s order, entered earlier today. It is, therefore,
ordered, adjudged, and decreed that this habeas action is dismissed without prejudice. The
clerk of the court shall transmit a copy of this judgment and a copy of the order dated July 31,
2020, accepting the Findings, Conclusions, and Recommendation of the United States Magistrate
Judge, to Petitioner.
Signed this 31 st day of July, 2020.

Sam A. Lindsay
United States District Judge

Judgment - Solo Page
47

C^Sffls8:22De1/G0(S£56-LE®ISIunB3ajrtu0(®1t®7509?d OSyag&U PS&AfMbffl:

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

May 25, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 20-10985

Chatman v. Lumpkin
USDC No. 3:20-CV-156

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk
By:
Casey A.Sullivan,Deputy Clerk
504-310-7642
Mr. Jack Anthony Chatman
Ms. Karen S. Mitchell
Ms. Jennifer Wissinger

63

